                                                                 Issue Date
                                                                         February 22, 2007
                                                                 Audit Report Number
                                                                         2007-FW-1005




TO:        Diana Armstrong
           Director, Office of Public Housing, 6JPH


FROM:
           Frank E. Baca
           Regional Inspector General for Audit, Fort Worth Region, 6AGA

SUBJECT: The Housing Authority of Bexar County, Texas, Overhoused Tenants and Paid
         Excessive Housing Assistance Payments in the Section 8 Housing Choice
         Voucher Program

                                   HIGHLIGHTS

 What We Audited and Why

             As part of the Office of Inspector General's annual audit plan, we audited the
             Housing Authority of Bexar County’s (Authority’s) Section 8 Housing Choice
             Voucher Program (Program). The audit objective was to determine if the
             Authority accurately calculated assistance payments and applied subsidy
             standards in accordance with its administrative plan as required by the U.S.
             Department of Housing and Urban Development (HUD) regulations. We
             analyzed Program data from the Authority and from HUD’s Public Housing
             Information Center (PIC) to identify 224 vouchers that appeared to exceed
             subsidy standards. We limited our audit to these 224 vouchers.


 What We Found


             The Authority accurately calculated assistance and correctly applied its subsidy
             standards in 151 of 224 (67 percent) vouchers we reviewed. However, the
             Authority paid excessive assistance of $107,658 on 61 vouchers because they did
                  not implement adequate file review procedures to ensure compliance with subsidy
                  standards. 1 We estimate the Authority could avoid additional overpayments of up
                  to $132,778 during the next 3.7 years 2 by implementing file review procedures to
                  ensure compliance with subsidy standards. In addition, due to excessive
                  assistance payments during three months in 2004 that were used as the baseline
                  for calculating the 2006 budget and maximum funding, HUD over-funded the
                  Authority's fiscal year 2006 Program budget by $34,050.

    What We Recommend


                  We recommend you require the Authority to correct voucher sizes and/or
                  payment standards on the 61 vouchers with excessive assistance and repay HUD
                  for the excessive assistance of $107,658 paid through June 30, 2006. In addition,
                  we recommend you require the Authority to repay any additional excessive
                  assistance paid on the 61 vouchers since July 1, 2006. We also recommend you
                  require the Authority to implement procedures to ensure it correctly assigns
                  voucher sizes and calculates assistance using the correct payment standards on
                  future vouchers. Finally, we recommend you reduce the Authority's 2006 budget
                  by $34,050 due to the excessive payments during the months in 2004 used as the
                  baseline in the formula for calculating its budget and funding.

                  For each recommendation without a management decision, please respond and
                  provide status reports in accordance with HUD Handbook 2000.06, REV-3.
                  Please furnish us copies of any correspondence or directives issued because of the
                  audit.


    Auditee’s Response


                  We provided a draft to the auditee on January 22, 2006, and requested a written
                  response by February 9, 2006. The Authority provided a written response on
                  February 9, 2006. The Authority agrees with the report finding and is taking steps
                  to correct the deficiencies. San Antonio's Office of Public Housing agreed with
                  the report and agreed to provide a management decision in 120 days.

                  The complete text of the auditee's response, and our evaluation of that response,
                  can be found in Appendix B of this report.




1
     For the remaining 12 vouchers, the Authority incorrectly applied its subsidy standards but did not pay excessive
     assistance because the contract rent was below the payment standard applied.
2
     The median length of time in the program for those receiving assistance in the 50 largest metropolitan statistical
     areas (MSAs) is 3.7 years. HUD Office of Policy Development and Research (2003).


                                                           2
                            TABLE OF CONTENTS


Background and Objectives                                                     4

Results of Audit
       Finding: The Authority Overhoused Tenants and Paid Excessive Housing   5
       Assistance Payments.

Scope and Methodology                                                         11

Internal Controls                                                             12

Appendixes
  A.    Schedule of Questioned Costs and Funds Be Put to Better Use           13
  B.    Auditee Comments and OIG’s Evaluation                                 14
  C.    Calculation of Funds Be Put to Better Use                             18




                                            3
                        BACKGROUND AND OBJECTIVES

        The Bexar County Commissioners Court established the Authority in 1975. The
        Authority’s five-member board of commissioners oversees policies and procedures
        administered by the Executive Director. The Authority maintains records and files at its
        office located at 1405 N. Main Avenue, Suite 201, San Antonio, Texas.

        According to PIC data, HUD authorized the Authority to administer 1,811 Section 8
        Housing Choice Voucher Program (Program) vouchers with funding of $30,897,095 for
        three fiscal years that ended June 30, 2006. The Authority disbursed $30,548,910 3 of
        this amount as of December 11, 2006. The Authority uses its Program funds to provide
        eligible families with rental subsidies for decent, safe, and sanitary housing in the private
        market. The Authority pays a housing subsidy directly to the property owner on behalf of
        the tenant; the tenant pays the difference between the actual rent and the subsidy amount.
        The Authority determines eligibility based on income and family size in accordance with
        its administrative plan. Also, the Authority verifies family income and composition
        annually and ensures the unit meets minimum housing quality standards.

        With the HUD Appropriation Acts for federal fiscal years 2003 through 2006, Congress
        revised its method of calculating and distributing Program renewal funds, housing
        assistance payments, and administrative fees. There were also provisions for a central
        fund and prohibitions on the use of Program funds for over-leasing. The revisions now
        require housing authorities to control the increasing costs of vouchers. In addition, the
        Program became completely budget-based in 2005. Housing authorities now must
        fiscally manage Program leasing levels and keep costs within the budget.

        HUD calculated the budget allocations for 2005 and 2006 using the actual housing
        assistance payments from the May-July 2004 reporting period. HUD applied annual
        adjustment factors and pro rata reductions to the calculations to determine the renewal
        amounts.

        The audit objective was to determine if the Authority accurately calculated assistance
        payments and applied subsidy standards in accordance with its administrative plan as
        required by HUD regulations.




3
    The difference of $348,185 between authorized funding and disbursed funds is due to timing and reporting
    differences.



                                                       4
                               RESULTS OF AUDIT

Finding: The Authority Overhoused Tenants and Paid Excessive
Assistance Payments
The Authority paid excessive housing assistance payments because it did not implement
effective review procedures to ensure compliance with subsidy standards in its administrative
plan. Consequently, the Authority processed and approved some vouchers that did not adhere to
its subsidy standards. During the review period, the Authority paid excessive assistance of
$107,658 on 61 vouchers including $105,121 on 41 overhoused vouchers and $2,537 on 20
vouchers calculated with incorrect payment standards. We estimate the Authority could avoid
additional overpayments of up to $132,778 during the next 3.7 years by implementing file review
procedures to ensure compliance with subsidy standards in the administrative plan. Also, due to
the overpayments in 2004, which were used to establish the baseline for 2006 funding, HUD
over-funded the Authority's fiscal year 2006 Section 8 Housing Choice Voucher Program budget
by $34,050. The Authority has taken steps to implement new file review procedures.



 The Authority Established
 Subsidy Standards


              HUD requires the Authority to adopt a written administrative plan that establishes
              local policies for administering the Program in accordance with HUD
              requirements. In addition, the Authority must administer the Program in
              compliance with the consolidated annual contributions contract, HUD regulations,
              and the administrative plan. It must also establish subsidy standards that
              determine the number of bedrooms needed for families of different sizes and
              compositions. The subsidy standards must provide for the smallest number of
              bedrooms needed to house a family without overcrowding.

              The Authority's administrative plan requires staff to assign voucher sizes to
              participants based on the number of persons in the assisted household. The plan
              generally allows a separate bedroom for the head-of-household, family members
              of different generations, and family members of different genders six years of age
              and older. The plan also allows a separate bedroom for family members with a
              doctor's note or other written verification of medical necessity including the need
              for a live-in aide. Live-in aides must reside in the unit and be included in
              determining family size. The Authority must also adjust the voucher size at each
              re-examination as required to accommodate a change in family composition. The
              subsidy standards in effect during the audit are in the following table:




                                               5
                                           Subsidy Standards
                                        Minimum number of             Maximum number of
                  Voucher size               persons                       persons
                      0                          1                            1
                      1                          1                            2
                      2                          2                            4
                      3                          3                            6
                      4                          4                            8
                      5                          6                           10



The Authority Followed Subsidy
Standards and Accurately
Calculated Assistance for Most of
the Vouchers Reviewed

            We reviewed 224 vouchers that appeared to be overhoused to determine if the
            Authority appropriately applied subsidy standards and accurately calculated
            housing assistance payments (including the use of correct payment standards).
            The Authority followed subsidy standards and accurately calculated assistance
            payments on 151 vouchers, or about 67 percent of all the vouchers we reviewed.
            On 61 vouchers, the Authority paid excessive assistance of $107,658 including
            $105,121 on 41 overhoused vouchers and $2,537 on 20 vouchers calculated with
            incorrect payment standards. For the remaining 12 vouchers, the Authority
            incorrectly applied the subsidy standards but did not pay excessive assistance
            because the contract rent was below the payment standard applied.


The Authority Overpaid
$107,658 in Housing
Assistance Payments

            The Authority did not follow its subsidy standards when assigning voucher sizes
            for 41 tenants resulting in excessive assistance of $105,121. On 25 vouchers the
            Authority did not provide support for medical exceptions; on 10 vouchers it did
            not follow age/gender requirements; and on 6 vouchers it did not adjust the
            voucher size to accommodate a change in the family composition.

            The Authority overhoused 25 tenants because it did not adequately document the
            medical need for the assigned voucher size. For example, in some cases the
            Authority increased the voucher size without a doctor's note or other written
            justification. In other cases, the Authority obtained a doctor's note prescribing the
            need for a live-in aide but did not show an increase in the family size on the
            family report. The Authority's administrative plan requires written documentation


                                              6
           showing the verified medical need for additional assistance. HUD requires live-in
           aides be considered when determining family size on the family report.

           The Authority overhoused 10 tenants because it did not follow its age/gender
           guidelines. The administrative plan requires a single bedroom be allocated to
           children less than six years of age and persons of the same gender and generation.
           For example, the plan allocates a single bedroom to a daughter and son when both
           are less than the age of six, to two teenage sons, or to an eight year old daughter
           and her teenage sister. However, the plan allocates two bedrooms for a
           grandfather and grandson, or a six year old daughter and four year old son. In all
           10 exceptions, the Authority approved a voucher with more than one bedroom to
           same gender family members of the same generation.

           The Authority paid excessive assistance for six overhoused tenants because it did
           not change the voucher size to reflect an interim change in the family
           composition. In most cases, the Authority did not reduce the voucher size at
           reexamination to reflect a reduction in family size during the interim period. For
           example, a family consisting of a head-of-household, an 18 year old son, and 16
           year old daughter qualifies for a three bedroom voucher. However, if either of the
           siblings moves out, the Authority must reduce the voucher size to two bedrooms
           at the next annual reexamination.


The Authority Used Incorrect
Payment Standards to
Calculate Assistance
Payments

           The Authority paid excessive assistance of $2,537 on 20 vouchers calculated with
           incorrect payment standards. In most cases, the Authority used a higher than
           appropriate standard to calculate assistance during a period of declining payment
           standards (discussed below). However, there were also instances where the
           Authority simply used an incorrect dollar amount to calculate the assistance
           payments.

           The Authority's board establishes payment standards based on published fair
           market rents for its jurisdiction. The Authority's payment standards in effect
           during the review period are shown in the following table:




                                            7
                        Bexar County Payment Standards and Effective Dates
                                 Bedroom Sizes                     Effective
                   0       1       2      3        4         5     Dates
                    525    584      721   930     1,131     1,301     06/22/2006
                    475    528      653   842     1,023     1,177     02/24/2006
                    481    531      659   878     1,056     1,214     11/17/2005
                    493    545      680   909     1,082     1,245     12/17/2004
                    519    574      716   957     1,139     1,310     12/01/2004
                    468    540      699   971     1,148     1,321     06/19/2004
                    466    537      696   968     1,145     1,316     02/27/2003
                    454    524      677   942     1,115     1,282     01/24/2002
                    438    507      655   911     1,078     1,240     01/25/2001
                    409    472      611   849     1,004     1,045     02/24/2000

           In a period of declining (but not increasing) payment standards, HUD regulations
           generally require the Authority to delay the use of a decreased standard to
           calculate assistance for at least an additional year. For example, the Authority
           would use a $968 payment standard to calculate assistance for a three-bedroom
           household for annual assistance contracts beginning on June 1, 2003, and June 1,
           2004. On December 17, 2004, the payment standard decreased to $909; however,
           because of the declining payment standard requirement, the Authority should
           continue to use the $968 amount to calculate assistance for an additional year
           beginning on June 1, 2005. The Authority would skip the higher interim amounts
           of $971 and $957 and use $909 to calculate assistance payments for the annual
           contract beginning on June 1, 2006. This is because the Authority delayed the use
           of the $909 standard in June 2005 for an additional year. If there are no
           additional changes to the payment standard amounts listed above, the Authority
           would use the increased payment standard amount of $930 to calculate annual
           assistance payments beginning on June 1, 2007.


The Authority Did Not Fully
Implement File Review
Procedures

           The Authority did not detect the assistance payment errors because the former
           executive director did not assign a staff person to perform file reviews as outlined
           in the Authority's administrative plan. The current executive director
           implemented new file review procedures and created the quality control
           coordinator position with a staff person dedicated solely to performing reviews of
           tenant files. However, increasing caseloads and staff turnover kept the director
           from fully implementing file review procedures throughout the review period.




                                             8
The Authority has Begun
Implementing New File Review
Procedures

            The Authority agrees that improved file review policy and procedures will help
            ensure the correct assignment of voucher sizes and accurately calculated
            assistance payments for future assisted tenants. The Authority has already hired
            additional staff and reassigned a qualified individual to the quality control
            coordinator position. The quality control coordinator’s sole responsibility is to
            review 100 percent of all the tenant files prior to entry into the computerized
            system to help ensure compliance with the Authority’s subsidy standards. In
            addition, the Authority plans to revise its administrative policy to reflect these
            changes as soon as possible.

            If the Authority implements the effective file review procedures, it may avoid
            future overpayments of $132,778. The savings of $132,778 is based on the
            average, monthly overhousing costs incurred during the review period projected
            as future savings over the next 3.7 years. Additional details are in Appendix C of
            this report.

HUD Over-Funded the
Authority’s Section 8 Budget

            The excessive assistance paid during the audit period resulted in over funding of
            the Authority's 2006 Program budget. The 2006 Appropriations Act required
            HUD to use the calendar year 2005 Program renewal amount as the baseline.
            HUD then adjusted the 2005 baseline amount by an annual adjustment factor and
            a proration factor that represents the 2006 percentage of 2005 funding. The
            Authority’s 2005 baseline renewal amount was based on the average actual costs
            and number of units authorized during May, June, and July 2004. The Authority
            paid excessive assistance of $8,746 during May, June, and July 2004. The
            excessive payments increased its baseline amount. Therefore, we calculated the
            increase in the 2005 baseline amount caused by the excessive assistance and
            determined the 2006 Program budget should be adjusted downward by $34,050.
            Details of the $34,050 calculation are shown in Appendix C of this report.




                                             9
Recommendations


                  We recommend HUD require the Authority to:

                  1A. Correct voucher sizes and/or payment standards on the 61 vouchers with
                      excessive assistance.

                  1B. Repay HUD for the excessive assistance of $107,658 paid during the audit
                      period and any additional excessive assistance paid on the 61 vouchers since
                      July 1, 2006.

                  We also recommend that HUD:

                  1C. Ensure the Authority implements effective procedures to ensure it correctly
                      assigns voucher sizes and calculates assistance using the correct payment
                      standards to avoid future overpayments of $132,778.

                  1D. Reduce the Authority's 2006 Program budget by $34,050 due to the use of
                      2004 overpayments in the formula for calculating the budget and funding.




                                                 10
                         SCOPE AND METHODOLOGY

The audit covered the period from July 1, 2003, through June 30, 2006. To accomplish our
objectives, we analyzed data provided by HUD and the Authority. We reviewed the Authority's
policies and procedures, tenant files, and audited financial statements. We also reviewed federal
regulations and the Authority's administrative plan. We interviewed HUD and Authority staff
and obtained an understanding of the applicable internal controls and procedures. We performed
fieldwork from August 2006 through November 2006 at the Authority’s office located at 1405
N. Main, in San Antonio, Texas, and at the HUD field office located at 106 S. Saint Mary's, in
San Antonio, Texas.

The Authority used two computerized systems to record and process Program vouchers during
the review period. The Authority transferred voucher data from its computerized systems to
HUD's PIC database on a monthly basis. We obtained computerized voucher data from the
Authority and PIC databases for background information purposes and to select our sample of
vouchers. We did not rely on the computerized data to base our conclusions, therefore, did not
assess its reliability. The Authority's databases listed 4,230 vouchers and the PIC database listed
2,069 vouchers for the review period. We used Microsoft Excel to merge the voucher lists and
eliminate duplicates and discrepancies. The new database included 2,437 vouchers administered
by the Authority during the review period, for which it paid $30,548,910 in assistance.

We identified 272 potentially overhoused vouchers from the universe of 2,437 vouchers
administered by the Authority during the review period. A voucher was considered potentially
overhoused when the number of bedrooms exceeded those allowed by the Authority's subsidy
standards. For example, if a family consisted of two members, we considered a voucher size of
three bedrooms to be potentially overhoused. We excluded 48 of the 272 potentially overhoused
vouchers from our review because (1) in 14 cases PIC data listed inaccurate termination dates for
tenants who terminated participation in the Authority's voucher program prior to the review
period, (2) in 30 cases the Authority transferred tenants to another housing authority, and (3) in
four cases the tenant was the subject of an ongoing investigation. We reviewed the remaining
224 potentially overhoused vouchers to determine compliance with the subsidy standards and
calculated the overpayments for all vouchers exceeding subsidy standards in the Authority’s
administrative plan.

We performed our review in accordance with generally accepted government auditing standards.




                                                11
                             INTERNAL CONTROLS

Internal control is an integral component of an organization’s management that provides
reasonable assurance that the following objectives are being achieved:

   •   Effectiveness and efficiency of operations,
   •   Reliability of financial reporting, and
   •   Compliance with applicable laws and regulations.

Internal controls relate to management’s plans, methods, and procedures used to meet its
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance.



 Relevant Internal Controls

              We determined the following internal controls were relevant to our audit objectives:
                 • Application and reexamination processing;
                 • Assignment of voucher sizes and subsidy standards; and
                 • Accurate calculation of housing assistance payments.

              We assessed the relevant controls identified above.

              A significant weakness exists if management controls do not provide reasonable
              assurance that the process for planning, organizing, directing, and controlling
              program operations will meet the organization’s objectives.


 Significant Weakness
              Based on our review, we believe the following item is a significant weakness:

                  •   The Authority did not fully implement file review procedures to ensure
                      Authority staff correctly assigned voucher sizes and accurately calculated
                      assistance payments as required by its administrative plan.




                                               12
                                    APPENDIXES

Appendix A

                SCHEDULE OF QUESTIONED COSTS
                AND FUNDS BE PUT TO BETTER USE



               Recommendation                                 Funds be put
                   Number               Ineligible 1/        to better use 2/
                       1B                  $107,658
                       1C                                               $132,778
                       1D                                                $34,050

                     Totals                $107,658                     $166,828




1/   Ineligible costs are costs charged to a HUD-financed or HUD-insured program or activity
     that the auditor believes are not allowable by law; contract; or federal, state, or local
     policies or regulations.

2/   “Funds be put to better use” are quantifiable savings that are anticipated to occur if an
     OIG recommendation is implemented, resulting in reduced expenditures at a later time
     for the activities in question. This includes costs not incurred, de-obligation of funds,
     withdrawal of interest, reductions in outlays, avoidance of unnecessary expenditures,
     loans and guarantees not made, and other savings. The $132,778 represents future
     overpayments the Authority will avoid if it implements procedures to correctly assign
     voucher sizes and accurately calculate assistance payments. The $34,050 represents a
     reduction in HUD’s maximum funding of the Authority’s Section 8 Housing Choice
     Voucher program budget due to prior overpayments. See Appendix C for calculations.




                                             13
Appendix B

        AUDITEE COMMENTS AND OIG’S EVALUATION


Ref to OIG Evaluation   Auditee Comments




Comment 1




                         14
15
16
                         OIG Evaluation of Auditee Comments

Comment 1   We contacted the Authority to confirm its agreement with the report findings.
            The Authority is taking steps to correct the deficiencies and is working with
            assisted tenants to meet their needs in compliance with its subsidy standards.




                                            17
Appendix C

          CALCULATION OF FUNDS BE PUT TO BETTER USE

      Calculation of savings by implementing file review procedures (recommendation 1C):

      A. Amount of excessive assistance payments during the review period                  $ 107,658

      B. Number of months in the review period                                                      36

      C. Average monthly overpayments (line A ÷ Line B)                                    $ 2,990.50

      D. Average annual overpayments (line C x 12 months)                                  $ 35,886

      E. Savings over the next 3.7 years (line D x 3.7)                                    $ 132,778

      Calculation of the 2006 Housing Choice Voucher Program overfunding adjustment
      (recommendation 1D):

      Excessive assistance paid during 2004 used to recalculate the 2006 budget:
                        May 2004                              $ 2,778
                        June 2004                               2,799
                        July 2004                               3,169
                        Total overpayments                    $ 8,746

      Average overpayment (8,746 ÷ 3 months)                            $ 2,915

      Annualized overpayments ($2,915 x 12 months)
      for over-funding adjustment                                       $ 34,980


      Renewal funding for calendar year 2006

                                                                           Over-funding    Adjusted funding
                                                       Actual Funding      adjustment         for 2006
      A. 2005 funding before proration for 2006        $10,269,587             ($34,980)   $ 10,234,607
      B. Annual adjustment factor                      1.029                   1.029       1.029
      C. Adjusted 2006 eligibility (line A x line B)   $10,567,405             ($35,994)   $ 10,531,411 4
      D. ration factor for 2006
           (per HUD Calculation)                       .94599                     .94599   .94599
      E. 2006 final funding amount
           (line C x line D)                           $9,996,659              ($34,050)   $ 9,962,609




4
    Rounded for scheduling purposes


                                                         18
